No. 19-7

 

IN THE

Supreme Court of the United States

SEILA Law LLC,

Petitioner,
v.

CONSUMER FINANCIAL PROTECTION BUREAU,
Respondent.

On Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit

BRIEF FOR AMICUS CURIAE THE UNITED
STATES HOUSE OF REPRESENTATIVES
IN SUPPORT OF THE JUDGMENT BELOW

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,992 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on January 22, 2020.

 

Wilson-Epes Printing Co., Inc.
